APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (September 22, 2020) ............ 1a
Judgment of the United States Court of Appeals
for the Third Circuit (September 22, 2020) ..... 30a
Judgment and Order of the District Court of
Virgin Islands (August 10, 2018) ..................... 32a
Order on Motion in Limine to Exclude Evidence
(June 18, 2018) ................................................. 40a
Order on Motion to Reopen Discovery
(June 4, 2018) ................................................... 42a
REHEARING ORDER
Order of the United States Court of Appeals for
the Third Circuit Denying Petition for
Rehearing (October 20, 2020) .......................... 47a

App.1a
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT
(SEPTEMBER 22, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
DLJ MORTGAGE CAPITAL, INC.
v.
ANA SHERIDAN; ROY SHERIDAN;
DEPARTMENT OF TREASURY INTERNAL
REVENUE SERVICE
ROY SHERIDAN,

Appellant.

________________________
No. 18-3187

On Appeal from the District Court of the
Virgin Islands (D.C. Civil No. 3-16-cv-00085)
District Judge: Hon. Curtis V. Gomez
Before: GREENAWAY JR., PHIPPS, and
FUENTES, Circuit Judges.
FUENTES, Circuit Judge.
Plaintiff DLJ Mortgage Capital, Inc. (“DLJ”)
brought a debt and foreclosure action against Roy
Sheridan (“Sheridan” or “Roy Sheridan”), Ana Sheridan,
and the Internal Revenue Service (“IRS” or the
“Government”). The parties proceeded to a bench trial.

App.2a
At the close of DLJ’s case-in-chief, the District Court
granted judgment in favor of DLJ under Rule 52(c) of
the Federal Rules of Civil Procedure, concluding that
DLJ satisfied all elements of its debt and foreclosure
claim. On appeal, Roy Sheridan, the only Appellant,
complains that he was not heard prior to judgment.
We must decide whether the District Court
properly granted judgment immediately after DLJ’s
case-in-chief. Because we find that, under the circumstances of this case, Roy Sheridan was “fully heard”
prior to judgment, and that his remaining challenges
are meritless, we will affirm the Judgment of the District Court.
I
A.
In August 2007, Ana and Roy Sheridan executed
a promissory note in favor of FirstBank of Puerto
Rico (“FirstBank”) in the amount of $725,000 (the
“Note”). The Sheridans also executed a mortgage
granting FirstBank a first priority security interest
in two real estate properties as security for the Note
(the “Mortgage”). Under the terms of the Note, the
Sheridans were jointly and severally liable for the
full amount of the loan. The Note further provided that
FirstBank “may transfer this Note” and “[FirstBank]
or anyone who takes this Note by transfer and who is
entitled to receive payments under this Note is called
the ‘Note Holder.’”1
In 2009 and 2011, the Sheridans and FirstBank
agreed to modify the Note and Mortgage by, among
1 App. 488.

App.3a
other things, increasing the principal sum and
extending the maturity date of the loan. Both modifications to the Mortgage stated that, except as
amended, the original terms of the Mortgage remained
in effect.2 The 2009 amendment to the Note also
contained similar language reinforcing the unaffected
terms of the original Note.
In 2012, the Sheridans defaulted under the terms
of the Note by failing to make several monthly payments. A year later, FirstBank assigned the Mortgage
to DLJ (the “Assignment”). FirstBank also transferred
physical possession of the Note to DLJ.
In 2015, DLJ, through its loan servicer, Select
Portfolio Servicing, Inc. (“SPS”), sent the Sheridans a
Notice of Default-Right to Cure. The Notice of Default
provided the Sheridans with the amount still owing
under the Note and a timeframe to cure the default.
The Sheridans failed to cure the default.
B.
In October 2016, DLJ commenced a debt and
foreclosure action against the Sheridans and the IRS.
The IRS was a named defendant to the action because
of its federal tax lien, in the amount of $18,924,

2 The 2009 Mortgage Modification specifically states that “[i]n all
other respects, the mortgage shall remain unchanged and shall
remain in full force and effect.” App. 518 (emphasis omitted).
The 2011 Mortgage Modification similarly states that “[e]xcept as
expressly set forth in and modified by this Agreement, the terms
and conditions of the Note, Mortgage, Assignment of Leases and
Rents and the Loan Documents, as amended, remain unchanged
and shall remain in full force and effect according to the original
terms and tenor thereof.” App. 521 (emphasis omitted).

App.4a
against Roy Sheridan and recorded against the properties used to secure the Note.3
The Sheridans and the IRS answered the complaint. The Sheridans asserted ten affirmative defenses,
which, as relevant on appeal, did not include any
allegation of fraud. The parties then proceeded to
discovery. Under the District Court’s Trial Management
Order, discovery requests and production were to be
completed by September 2017. Although DLJ complied
with its discovery obligations, the Sheridans failed to
participate in discovery.
Before trial, the parties attempted mediation. Over
the course of several months, the parties participated
in at least three mediation sessions presided over by the
Magistrate Judge. Unfortunately, the parties were
unable to reach a settlement. DLJ and the IRS did,
however, execute a consent to judgment of foreclosure
where the IRS conceded that its tax lien was subordinate to DLJ’s first priority security interest in the
properties.4
One week prior to trial, Roy Sheridan5 filed witness and exhibit lists identifying a non-party witness
3 Under Virgin Islands law, “[a]ny person having a lien subsequent
to the plaintiff upon the same property or any part thereof, or
who has given a promissory note or other personal obligation
for the payment of the debt or any part thereof, secured by the
mortgage or other lien which is the subject of the action, shall
be made a defendant in the action. Any person having a prior
lien may be made defendant at the option of the plaintiff, or by
the order of the court when deemed necessary.” 28 V.I.C. § 532.
4 Although the IRS moved to be excluded from trial, the Government was ultimately present at trial.
5 At trial, Roy and Ana Sheridan, then divorced, were represented
by separate counsel.

App.5a
from FirstBank and documents that were not disclosed
or provided during discovery. Upon DLJ’s motion to
exclude evidence not previously disclosed, the Magistrate Judge ordered that “the documents and witnesses
not previously disclosed, with the exception of the
Sheridans themselves, be excluded from trial.”6 In
addition, the night before trial, Roy Sheridan moved
for leave to file a “Joint First Amended Answer” to
include allegations of fraud and violations of the Truth
in Lending Act.7
The next day, the parties proceeded to a one-day
bench trial. The District Court heard from DLJ’s factwitness, Linda Holmes, who is an employee of SPS,
and Roy Sheridan. At the conclusion of its case-inchief, DLJ moved for a “directed verdict.”8 The District Court heard from all parties as to the elements
of the debt and foreclosure claims. In response to
DLJ’s request for a directed verdict, Roy Sheridan
argued that DLJ lacked standing to enforce the Note
and Mortgage and that, therefore, the District Court
did not have jurisdiction over the case. Ana Sheridan,
who moved for judgment as a matter of law, made

6 App. 417.
7 App. 466. The District Court did not explicitly rule on the motion.
8 App. 272-73. Because the parties proceeded with a bench trial,
and consistent with DLJ’s arguments on appeal, we construe
DLJ’s motion as a Rule 52(c) motion for judgment on partial
findings, rather than as a motion for a directed verdict. See Fed.
R. Civ. P. 52(c).

App.6a
similar arguments contesting DLJ’s standing to enforce
the Note and Mortgage.9
Upon hearing from the parties, the District Court
made several findings and concluded that DLJ’s
evidence was sufficient to prove the elements of its
debt and foreclosure claim, including that DLJ had
standing to enforce the Note and Mortgage. Although
Roy Sheridan reminded the District Court that it had
not ruled on whether he would be “able to present
his affirmative defenses concerning fraud,” no party
challenged the judgment at that time as premature.10
On August 10, 2018, the District Court filed its written
Judgment, providing its factual findings, conclusions
of law, and several orders granting relief.
Thirty-one days later, Roy Sheridan moved for
a new trial or for reconsideration of the judgment,
arguing that the District Court erred in entering
judgment without the parties attempting to mediate
in good faith and that the Judgment was void because
it deprived him of property without the opportunity
to be heard.11
On October 1, 2018, Roy Sheridan filed a notice of
appeal.12

9 Notably, though, Ana Sheridan conceded that there was evidence
that there was a mortgage and a note, and that there was a breach
of the mortgage and the note. App. 288-89.
10 App. 314.
11 The District Court has not ruled on the post-trial motion.
12 Ana Sheridan and the IRS are not participating in this appeal.

App.7a
II13
DLJ contests our jurisdiction, arguing that Sheridan’s notice of appeal was untimely. “We have jurisdiction to review our own jurisdiction” and find that
we can appropriately exercise jurisdiction under 28
U.S.C. § 1291 and § 1294(3).14
DLJ argues that we lack jurisdiction over Sheridan’s appeal because Sheridan did not file the appeal
within thirty days of the District Court’s written Judgment dated August 10, 2018. Sheridan responds that
the appeal is timely because the IRS’s involvement in
the proceedings triggered the 60-day period for filing
a notice of appeal under Federal Rule of Appellate
Procedure (“FRAP”) 4(a)(1)(B)(ii). We need not decide
whether the IRS’s involvement in the proceedings
triggered application of the 60-day deadline, because
the District Court’s failure to comply with the separateorder requirement of Federal Rule of Civil Procedure
(“FRCP”) 58 renders this appeal timely.
“Under [FRAP] 4(a)(1)(A), notices of appeal must
generally be filed ‘within 30 days after the . . . order
appealed from is entered.’”15 However, where FRCP
58(a)(1) “‘requires a separate document,’ the judgment
is considered entered ‘when the judgment or order is
entered in the civil docket under [FRCP] 79(a) and
when the earlier of these events occurs: [1] the judgment or order is set forth on a separate document, or
13 The District Court had jurisdiction under 28 U.S.C. § 1332(a)(1)
and 48 U.S.C. § 1612(a).
14 LeBoon v. Lancaster Jewish Cmty. Ctr. Ass’n, 503 F.3d 217,
222 (3d Cir. 2007).
15 Id. at 223 (quoting Fed. R. App. P. 4(a)(1)(A)).

App.8a
[2] 150 days have run from entry of the judgment or
order in the civil docket under [FRCP] 79(a).’”16
Under FRCP 58(a), “[e]very judgment and amended
judgment must be set out in a separate document.”17
If no separate document exists, “an appellant has
180 days to file a notice of appeal—150 days for the
judgment to be considered entered, plus the usual 30
days from the entry of judgment.”18 There are certain
exceptions to FRCP 58, none of which are relevant
here.
To determine whether the District Court’s August
10 Judgment can be properly characterized as a
separate document, we must consider whether it
meets the following requirements: “(1) it must be
self-contained and separate from the opinion, (2) it
must note the relief granted, and (3) it must omit (or
at least substantially omit) the trial court’s reasons
for disposing of the claims.”19
Here, the August 10 Judgment does not comply
with FRCP 58’s separate-document rule. It is neither
“self-contained and separate from the opinion,” nor
does it omit its reasoning in disposition of the claim.20
We have said that “[t]o be independent of the court’s
opinion, an order must be separately titled and captioned, not paginated consecutively to the opinion or
memorandum, not stapled or otherwise attached to
16 Id. (quoting Fed. R. App. P. 4(a)(7)(A)(ii)).
17 Fed. R. Civ. P. 58(a).
18 LeBoon, 503 F.3d at 223 (internal quotation marks omitted).
19 Id. at 224.
20 Id.

App.9a
the opinion, and must be docketed separately.”21 The
Judgment, which is ten pages, contains one case
caption, the trial judge’s signature on the last page of
the document, and is consecutively paginated. The
judgment portion of the document begins on page
seven, where it notes the relief granted and makes
several orders. Further, although titled and docketed
as a “Judgment,” and noting the relief granted, the
document contains the District Court’s factual findings
and legal discussion disposing of DLJ’s claims. This
precludes the August 10 Judgment from complying
with FRCP 58’s separate-document rule.22
Accordingly, the August 10 Judgment should be
considered “entered” 150 days after August 10, 2018, on
January 7, 2019, under FRAP 4(a)(7)(A)(ii).23 Sheridan
had thirty days after that to file his notice of appeal.
Because Sheridan filed his notice of appeal in
October 2018, well within the additional 180 days,
we have jurisdiction over this appeal.24
21 Id. at 224.
22 In re Cendant Corp. Sec. Litig., 454 F.3d 235, 245 (3d Cir. 2006)
(holding that an order failed to comply with Rule 58’s separate
order requirement “because it contained an extended discussion
of facts and procedural history”).
23 Fed. R. App. P. 4(a)(7)(A)(ii).
24 Although Sheridan filed his notice of appeal before the judgment
was formally entered, “we are not prevented from entertaining it.”
LeBoon, 503 F.3d at 224 n.5 (“Filing Before Entry of Judgment.
A notice of appeal filed after the court announces a decision or
order—but before the entry of the judgment of order—is treated
as filed on the date of and after the entry” (quoting Fed. R. App.
P. 4(a)(2))); see also Fed. R. App. P. 4(a)(7)(B) (“A failure to set
forth a judgment or order on a separate document when required

App.10a
III
Sheridan’s primary argument is that the District
Court erred in granting judgment at the close of
DLJ’s case-in-chief without allowing him to be heard
on his evidence and defenses. He also challenges (i)
the District Court’s finding that DLJ had standing to
bring this action and enforce the Note and Mortgage,
(ii) the monetary award granted to DLJ, and argues
(iii) the judgment is void because the parties did not
attempt to mediate in good faith.
A.
At the close of its case-in-chief, DLJ moved for
judgment based on partial findings. Sheridan did not
object to the District Court’s consideration of the
motion at that time. Instead, the parties proceeded to
make their respective arguments as to whether DLJ
met its burden of providing evidence sufficient to
establish its debt and foreclosure claims and, more
generally, whether DLJ had standing to bring this
action.25 Having failed to successfully challenge DLJ’s
evidence, Sheridan now claims that the District Court
erred in granting DLJ’s motion because it deprived
him of the opportunity to be heard.
It gives us pause that the District Court granted
judgment in favor of DLJ at the close of DLJ’s casein-chief. Indeed, while we have recognized that a district court has wide latitude in the management of
civil trials, we have also observed that the Federal
by [FRCP] 58(a)(1) does not affect the validity of an appeal from
that judgment or order.”)
25 We note that Ana Sheridan also moved for “judgment as a
matter of law.” App. 288.

App.11a
Rules of Civil Procedure “repeatedly embody the
principle that trials should be both fair and efficient.”26
Nonetheless, under the circumstances of this case,
we find relief was appropriate under Rule 52(c).
Rule 52(c) states:
If a party has been fully heard on an issue
during a nonjury trial and the court finds
against the party on that issue, the court
may enter judgment against the party on a
claim or defense that, under the controlling
law, can be maintained or defeated only with
a favorable finding on that issue. The court
may, however, decline to render any judgment
until the close of the evidence. A judgment
on partial findings must be supported by
findings of fact and conclusions of law as
required by Rule 52(a).27
We have explained that any party may make a
Rule 52(c) motion, and the court may grant such
motion, “at any time during a bench trial, so long as
the party against whom judgment is to be rendered
has been ‘fully heard’ with respect to an issue essential
to that party’s case.”28 But that a party be “fully
heard” does not mean that a party must be allowed
“to introduce every shred of evidence that a party
wishes, without regard to the probative value of that

26 Duquesne Light Co. v. Westinghouse Elec. Corp., 66 F.3d 604,
609 (3d Cir. 1995).
27 Fed. R. Civ. P. 52(c).
28 EBC, Inc. v. Clark Bldg. Systems, Inc., 618 F.3d 253, 272 (3d Cir.
2010).

App.12a
evidence.”29 “As a result, the court need not wait until
that party rests its case-in-chief to enter judgment
pursuant to Rule 52(c).” 30 “In this respect, it is
within the discretion of the trial court to enter a judgment on partial findings even though a party has
represented that it can adduce further evidence, if
under the circumstances, the court determines that
the evidence will have little or no probative value.”31
In addition, even if the district court believes judgment
in favor of the moving party would be appropriate, it
remains within the district court’s discretion to wait
until the non-movant has presented her case or all
probative evidence is admitted before entering judgment.32
Further, although Rule 52(c) motions are most
commonly brought by defendants at the close of
plaintiff’s case-in-chief,33 judgments based on partial
findings may be entered against both plaintiffs and
29 Id. at 272 n.21 (quoting First Va. Banks, Inc. v. BP Exploration
& Oil, Inc., 206 F.3d 404, 407 (4th Cir. 2000)).
30 Id. at 272; see also N.Y. Susquehanna & W. Ry. Corp. v. Jackson, 500 F.3d 238, 246 n.6 (3d Cir. 2007) (“[T]he Federal Rules

of Civil Procedure . . . allow judgment after partial findings against
a party that has been fully heard on the relevant issue.”);
Granite State Ins. Co. v. Smart Modular Techs., Inc., 76 F.3d
1023, 1031 (9th Cir. 1996) (“[T]he rule ‘authorizes the court to
enter judgment at any time that it can appropriately make a
dispositive finding of fact on the evidence.’” (quoting Fed. R.
Civ. P. 52(c) advisory committee’s note)).
31 EBC, 618 F.3d at 272 n.21.
32 Id. at 272.
33 9C Charles Alan Wright & Arthur R. Miller, Fed. Prac. &
Proc. Civ. § 2573.1 (3d ed. Supp. 2020).

App.13a
defendants.34 Indeed, the history of Rule 52(c) informs
our understanding of the rule. Previously, FRCP 41
(b) “permitted a court to enter judgment against a
plaintiff at the close of his or her case-in-chief if he or
she failed to meet the applicable burden of proof.”35
Rule 41(b), however, did not permit a district court to
enter judgment in favor of the plaintiff at the conclusion
of its case-in-chief. That was the law until 1991, when
subdivision (c) was added to Rule 52 and replaced
some provisions of Rule 41(b). The Advisory Committee
Notes state, in relevant part: “Language is deleted
that authorized the use of this rule as a means of
terminating a non-jury action on the merits when the
plaintiff has failed to carry a burden of proof in presenting the plaintiff’s case. The device is replaced by
the new provisions of Rule 52(c), which authorize
entry of judgment against the defendant as well as
the plaintiff, and earlier than the close of the case of
the party against whom judgment is rendered.”36
Subdivision (c) therefore “operates more broadly than
did its predecessor, because courts may now make
partial findings on any claim or defense, of any
party, at any time.”37 In short, Rule 52(c) motions
may be granted either for or against the plaintiff at
the conclusion of plaintiff’s case-in-chief.
What is important is that the trial court may make
a dispositive finding on an essential factual issue and
34 Fed. R. Civ. P. 52(c) advisory committee’s note.
35 EBC, 618 F.3d at 272 n.20 (citing Fed. R. Civ. P. 52(c) advisory
committee’s note).
36 Fed. R. Civ. P. 41(b) advisory committee’s note (1991 amendment).
37 EBC, 618 F.3d at 272 n.20.

App.14a
judgment may be entered when the parties have been
provided with the opportunity to submit relevant and
probative evidence bearing on that issue. Courts
cannot deprive parties of the opportunity to submit
relevant and probative evidence on an issue essential
to a party’s case, unless the complaining party has
forfeited the right to present certain evidence by
virtue of its conduct during the litigation. For example,
as relevant here, a party’s failure to comply with disclosure obligations under FRCP 26 may result in the
trial court preventing that party from using certain
evidence or calling certain witnesses at trial.38 Under
this scenario, a party against whom judgment has
been entered under Rule 52(c) cannot complain that
she was deprived of the opportunity to be heard absent
error in the trial court’s decision to preclude the party
from offering the excluded evidence. In the usual
scenario where both parties have properly brought
the case to trial, judgment based on partial findings
may be appropriate when both parties have been
“fully heard” and the court is able to make a dispositive finding based on the evidence presented.
Here, in view of the particular circumstances of
this case, we find that Roy Sheridan was “fully heard”
within the meaning of Rule 52(c). In order to succeed
on its foreclosure claim, DLJ was required to prove
by a preponderance of the evidence that “(1) the debtor
executed a promissory note and mortgage, (2) the
debtor is in default under the terms of the note and
mortgage, and (3) the lender is authorized to foreclose on the property mortgaged as security for the
38 Fed. R. Civ. P. 37(c)(1) (providing potential sanctions for a
party’s failure to abide by Rule 26(a) or (e)).

App.15a
note.”39 On appeal, Sheridan does not contest the
first two elements.40 Rather, he argues that the District Court prevented him from offering evidence to
challenge DLJ’s standing and authority to foreclose,
and prevented him from presenting his affirmative
defenses, including fraud. For the reasons discussed
below, we disagree.
1.
As to DLJ’s standing to enforce the Note and foreclose, DLJ presented the testimony of Linda Holmes,
a case manager with SPS. Holmes testified that DLJ
is the current holder of the Note and is in possession
of the original Note. She also testified that FirstBank
transferred the Note to DLJ, and DLJ introduced an
“allonge document”41 at trial to show that it “has the
original note.”42 Through Holmes’s testimony, DLJ
also introduced the Assignment, which assigned the
Mortgage from FirstBank to DLJ in 2013.
Sheridan was given the opportunity to contest the
evidence submitted in support of DLJ’s standing to
enforce the Note and foreclose on the properties
39 Anthony v. FirstBank V.I., 58 V.I. 224, 232 (2013) (quoting
Thompson v. Fla. Wood Treaters, Inc., 52 V.I. 986, 995 (D.V.I.
2009)).
40 It is undisputed that Roy and Ana Sheridan signed the Note
and that they are in default under the terms of the Note.
41 An allonge is “[a] slip of paper sometimes attached to a negotiable instrument for the purpose of receiving further indorsements
when the original paper is filled with indorsements.” Black’s Law
Dictionary 88 (9th ed. 2009). Holmes explained in her testimony
that an allonge “giv[es] ownership to another party.” App. 203.
42 App. 217.

App.16a
mortgaged as security for the Note. Although terse,
his counsel cross-examined Holmes on the relevant
loan documents, including the Note, allonge, and
Assignment. Indeed, Sheridan’s argument that DLJ
lacked standing was premised on the face of the loan
documents, which Sheridan had an opportunity to
inspect and challenge.43 Sheridan does not assert that
a fuller examination of Holmes would have revealed
additional evidence and we will not second-guess
counsel’s tactical decision to limit her cross-examination.
In addition, Sheridan also testified, and thus had
an opportunity to disclose evidence of which he had
personal knowledge. At oral argument, Sheridan
suggested that because he was called to testify
during DLJ’s case-in-chief, his counsel could not have
cross-examined him beyond the scope of issues raised
during direct examination. However, to the extent
his testimony would have related to DLJ’s standing,
or rebutted Holmes’s testimony, those issues would
properly have been elicited during cross-examination.
And, to the extent he sought to testify as to matters
beyond the scope of cross-examination, he could have
asked the District Court to exercise its discretion to
permit such testimony under Federal Rule of Evidence
611(b).44 Sheridan did neither. Further, although he
was quite possibly unaware that the District Court
43 Indeed, Sheridan conceded at oral argument that we can rule
on the issue concerning the allonge documents presented by
DLJ on the record before us.
44 Fed. R. Evid. 611(b) (“Cross-examination should not go beyond
the subject matter of the direct examination and matters affecting
the witness’s credibility. The court may allow inquiry into additional matters as if on direct examination.”).

App.17a
would render judgment at the conclusion of DLJ’s
case-in-chief, Sheridan did not ask the District Court
for permission to testify again at any time prior to
the District Court ruling in favor of DLJ.
Sheridan also engaged in an extensive colloquy
with the District Court as to DLJ’s standing to foreclose,
including whether the Assignment was defective and
whether DLJ held only a partial interest in the
Assignment. The District Court allowed all parties to
present their arguments before deciding the issue of
DLJ’s standing and authority to foreclose. Sheridan
did not, at that time, indicate what further evidence,
including any rebuttal evidence, he had to contest
DLJ’s standing. Upon hearing that the parties had
nothing further to present on the issue of standing,
the District Court properly exercised its discretion in
granting judgment in favor of DLJ.45
Critically, besides recalling Sheridan to the stand,
there appears to have been no evidence for Sheridan
to present. Because Sheridan failed to participate
during discovery, the Magistrate Judge denied
Sheridan’s untimely non-party subpoena to compel
testimony from a FirstBank employee and ordered
that “documents and witnesses not previously disclosed
[by the Sheridans], with the exception of the Sheridans
themselves, be excluded from trial.”46 Thus, Sheridan
45 At the conclusion of the proceedings, the District Court asked
the parties whether there was “[a]nything else . . . to address[.]”
App. 313. Sheridan mentioned only his legal challenge to the
Assignment and ability to raise his defense of fraud, which, as
discussed infra, the District Court was within its discretionary
power to deny.
46 App. 417. Sheridan does not challenge this ruling on appeal.

App.18a
could have only challenged the validity of the loan
documents, including the Note, allonges, and Assignment through cross-examination of Holmes, which he
was given the opportunity to do, or through his own
testimony, to the extent he had any personal knowledge. To date, Sheridan has not indicated what additional admissible evidence he intended to present to
contest DLJ’s standing.47
The District Court heard and considered Sheridan’s arguments concerning the transfer of the
Note from FirstBank to DLJ and the validity of the
Assignment. Accordingly, we find that he was fully
heard with regard to DLJ’s standing to foreclose.
2.
Sheridan also argues he was not fully heard
because the District Court prevented him from presenting evidence supporting his affirmative defenses of
fraud and illegality under the Truth in Lending Act.
Again, we disagree.
Sheridan moved to amend his answer to assert
defenses of fraud and illegality the day before trial
was scheduled to begin. The District Court did not
explicitly rule on the motion prior to judgment. However, in its written Judgment, the District Court
denied all pending motions as moot. We construe the
District Court’s decision to proceed to judgment at
the conclusion of the bench trial as an implicit denial

47 Indeed, at oral argument, Sheridan conceded that, at the
time of trial, there was no further witness he intended to call to
challenge DLJ’s standing to enforce the Note.

App.19a
of the motion for leave to amend.48 Thus, Sheridan’s
argument that he was deprived of the opportunity to
be heard with regard to his affirmative defenses of
fraud and illegality is viable only if he can show that
the District Court abused its discretion in failing to
grant his motion for leave to amend his answer.
Under Federal Rule of Civil Procedure 15(a), leave
to amend “shall be freely given when justice so
requires,” and we have consistently adopted a liberal
approach to the allowance of amendments.49 Even
when a party is late in moving for leave to amend,
we have expressed a preference for allowance of the
amendment, so long as the opposing party is not prejudiced by the delay.50 “It is well-settled that prejudice to the nonmoving party is the touchstone for

48 See United States v. Freeman, 763 F.3d 322, 711 n.10 (3d Cir.
2014) (construing the court’s decision to proceed to final judgment as an implicit denial of the defendant’s motion for a new
trial); see also United States v. Depew, 210 F.3d 1061, 1065 (9th
Cir. 2000) (“We treat the district court’s failure to rule on [the
defendant’s] motion as a denial of it.”); Norman v. Apache Corp.,
19 F.3d 1017, 1021 (5th Cir. 1994) (“The denial of a motion by
the district court, although not formally expressed, may be implied
by the entry of a final judgment or of an order inconsistent with
the granting of the relief sought by the motion.”).
49 Berkshire Fashions, Inc. v. M.V. Hakusan II, 954 F.2d 874,
886-87 (3d Cir. 1992) (quoting Fed. R. Civ. P. 15(a)).
50 See Charpentier v. Godsil, 937 F.2d 859, 864 (3d Cir. 1991)
(“Unless the opposing party will be prejudiced, leave to amend
should generally be allowed.”).

App.20a
the denial of an amendment.”51 And we review the
denial of leave to amend for abuse of discretion.52
Here, Sheridan’s motion was untimely, and the
late assertion of fraud would have prejudiced DLJ.
Sheridan’s original answer asserted boilerplate affirmative defenses, none of which contained any allegations
of fraud or violations of the Truth in Lending Act.
Under the District Court’s Trial Management Order,
the parties were given until January 2017 to amend
their pleadings. Of course, Sheridan failed to amend
by this date. And he does not explain his failure to do
so.53 Instead, he waited over one year from when the
complaint was filed and several months after the
completion of discovery to move for leave to amend.54

51 Cornell & Co. v. Occupational Safety & Health Review Comm’n,
573 F.2d 820, 823 (3d Cir. 1978).
52 Berkshire Fashions, 954 F.2d at 886.
53 In addition to satisfying the Rule 15(a) standard, Sheridan
was also required to demonstrate good cause under Federal Rule
of Civil Procedure 16(b)(4) to amend his answer after the deadline
set in the Trial Management Order. See Premier Comp Solutions,
LLC v. UPMC, 970 F.3d 316, 317 (3d. Cir. 2020) (clarifying
that “when a party moves to amend or add a party after the
deadline in a district court’s scheduling order has passed, the
‘good cause’ standard of Rule 16(b)(4) . . . applies” (quoting Fed.
R. Civ. P. 16(b)(4)). Sheridan’s failure to address the required
showing of good cause further supports the District Court’s
denial of the motion for leave to amend.
54 Sheridan also argues that the District Court was on notice of
his defenses of fraud and violations of the Truth in Lending Act
because the defenses were raised in his opposition to DLJ’s
motion for summary judgment. However, even this opposition
was untimely as it was filed several months after DLJ’s motion
for summary judgment, which was filed in February 2018,

App.21a
Even if Sheridan could not have asserted his defenses
of fraud when he filed his original answer, he could
have exercised due diligence and moved for leave to
amend soon after discovery was complete. His proposed
amended answer was based on discovery DLJ provided,
which shows that Sheridan had knowledge of his
defenses months before trial.
Further, because DLJ did not have notice of
Sheridan’s defenses, the untimely defense would likely
have required additional discovery. Sheridan’s defense
of fraud relates to the conduct of FirstBank employees
who were not a party to this action, and the origination
of the loan documents. DLJ’s theory in this case presumed the validity of the original loan documents;
thus, amendment of the answer would have required
DLJ to engage in a last-minute change in strategy.55
Further, because Sheridan did not assert allegations
of fraud in his original answer, nor did he participate
in discovery, no discovery was exchanged with regard
to the conduct of FirstBank employees in issuing the
original loan and subsequent modifications. The lack
of discovery as to the conduct of FirstBank employees
in issuing the original loan documents is presumably
why Sheridan served an untimely subpoena on a
FirstBank employee.56
without leave from the District Court, and only ten days before
trial.
55 We also note that Sheridan’s proposed amended answer
contains no factual allegations as to the fraudulent conduct
FirstBank employees engaged in. See Fed. R. Civ. P. 9(b) (“In
alleging fraud . . . , a party must state with particularity the
circumstances constituting fraud or mistake.”).
56 Notably, in May 2018, Ana Sheridan sought to reopen discovery
and obtain “a full copy of the entire loan file, including, but not

App.22a
And, as explained above, in view of the Magistrate
Judge’s order excluding witnesses and evidence not
previously disclosed, Sheridan had nothing to present
besides his own testimony to support his purported
affirmative defenses.57 We can hardly fault the District
Court for implicitly denying the motion, especially
where Sheridan failed to participate in discovery and
only moved to amend his answer the night before
trial. On this record, we find no abuse of discretion.
3.
We would be remiss if we failed to caution
against the practice of granting judgment for the
plaintiff before the defendant has presented a case.
But such relief was appropriate under the circumstances of this case. Sheridan’s inability to present
evidence, besides his own testimony, was of his own
making. He had full recourse to the federal rules of
discovery, but failed to comply with his discovery
obligations. He also had ample opportunity to seek
leave to amend his answer, and the District Court
acted within its discretion in refusing to allow the
untimely amendment. Further, Sheridan was allowed
to testify, and the record suggests there was no
limited to, any document relating to First Bank’s (Plaintiff’s
predecessor in interest) evaluation, approval, and administration
of the loan.” App. 361. In June 2018, the District Court denied
the motion.
57 Presumably in support of his defenses, on June 12, 2018,
Sheridan served Patrickson Thomas, a FirstBank employee,
with a non-party subpoena seeking to compel his testimony at
trial. Both non-party FirstBank and DLJ moved to quash the
subpoena. In view of the Magistrate Judge’s order excluding
evidence and witnesses not previously disclosed, Thomas was
not allowed to testify at trial.

App.23a
further admissible evidence he intended to present
on the relevant and essential issues.
Accordingly, we find that Sheridan was fully
heard within the meaning of Rule 52(c) and that this
record is ripe for clear error review.58
B.
Having determined that Sheridan was fully heard
prior to judgment, we proceed to the merits of his
arguments. Sheridan’s arguments amount to the
following challenges: (1) the District Court erred in
finding that DLJ had standing to foreclose on the
properties and that, because DLJ lacked standing,
the District Court did not have jurisdiction over this
action; (2) DLJ failed to join indispensable parties;
(3) DLJ was awarded more than it was due under the
Note; and (4) judgment was not proper because the
parties did not attempt to mediate in good faith. None
of these arguments prevail.
“In considering whether to grant judgment under
Rule 52(c), the district court applies the same standard
of proof and weighs the evidence as it would at the
conclusion of the trial.”59 “[T]he [district] court does
58 Sheridan raises a procedural due process claim under the Fifth
and Fourteenth Amendments to the United States Constitution,
as applied to the Virgin Islands by the Revised Organic Act of
1954. He claims that he was deprived of property without due
process of law because he was denied the right to be heard at
trial. However, Sheridan concedes that Rule 52(c)’s requirement
that a party be “fully heard” is consistent with the federal constitution’s due process protections. Because we find that Sheridan
was “fully heard” within the meaning of Rule 52(c), we reject
his due process challenge.
59 EBC, 618 F.3d at 272.

App.24a
not view the evidence through a particular lens or
draw inferences favorable to either party,” and can
appropriately make credibility determinations when
necessary.60 The district court “must make findings
of fact and conclusions of law pursuant to Rule 52
(a).”61 We review those factual findings for clear error
and legal conclusions de novo.62 We will find clear
error if we are “left with the definite and firm conviction that a mistake has been committed.”63 And
“[w]e will not reverse ‘[i]f the district court’s account
of the evidence is plausible in light of the record
viewed in its entirety’ even if we would have weighed
that evidence differently.”64
1.
Sheridan argues that DLJ lacks standing to
enforce the Note and Mortgage because (1) the
Assignment transferred only a partial interest in the
Note and Mortgage to DLJ and (2) the defective
chain of Assignments makes it unclear what interest
DLJ possesses in the Note. We disagree.
Although we would nevertheless reject Sheridan’s
challenge to the Assignment,65 we note that because
60 Id. at 272-73.
61 Id. at 273.
62 Id.
63 Id.
64 Id. (quoting Anderson v. City of Bessemer City, N.C., 470
U.S. 564, 573-74 (1985)).
65 Sheridan primarily challenges the Assignment on the basis
that, because it omitted Ana Sheridan’s name, FirstBank must
have meant to transfer only a partial interest to DLJ. Sheridan

App.25a
the Note was transferred to DLJ, under the Restatement (Third) of Property, and absent Virgin Islands
law to the contrary, the Mortgage in this case automatically followed the Note.66
In challenging DLJ’s standing to enforce the
Note, Sheridan does not contest DLJ’s possession of
the Note, rather, he argues that the evidence “reveals
various unreconciled, partial [a]ssignments” of the
also implied that the Assignment was invalid because it failed
to acknowledge the mortgage modifications. Assuming Sheridan
has standing to challenge the Assignment, despite not being a
party to the Assignment, the District Court’s interpretation of
the Assignment, and its determination that FirstBank transferred
its entire interest in the Mortgage to DLJ, was not clearly
erroneous. A mortgage or an assignment of mortgage is a contract,
see Aviation Assocs. v. V.I. Port Auth., 26 V.I. 24, 34-35 (1990)
(providing that an assignment “is a matter of contract”), and we
“review a district court’s interpretation of a contract for clear
error,” In re Nat’l Football League Players’ Concussion Injury Litig.,
962 F.3d 94, 101 (3d Cir. 2020). The language of the Assignment
unambiguously transfers FirstBank’s interests in the Mortgage
to DLJ. See White v. Spenceley Realty, LLC, 53 V.I. 666, 678
(2010) (looking first at the contract’s language to determine the
existence of any ambiguity). The Assignment indicates Roy
Sheridan’s name as a borrower, the date the mortgage was
executed, that the mortgage was executed in favor of First Bank,
the two properties subject to foreclosure, the original principal
amount of the loan, and the document number assigned to the
Mortgage when it was recorded. These descriptions and recording
information identified the mortgage being assigned. Sheridan
provides no legal authority for the proposition that omitting a
co-borrower’s name from an assignment necessarily means that
the assignor intends to transfer only a partial interest.
66 See UMLIC VP LLC v. Matthias, 234 F. Supp. 2d 520, 523
(D.V.I. 2002) (“[I]n the Virgin Islands, no separate document
specifically assigning and transferring the mortgage which
secures a note is required to accompany the assignment of the
obligation, because the mortgage automatically follows the note.”).

App.26a
Note and Mortgage which make it “unclear” what
interest DLJ possesses.67
The debt in this action is evidenced by the Note.
There has been no suggestion that a note secured by
a mortgage is not a negotiable instrument under the
Virgin Islands Uniform Commercial Code.
Under Virgin Islands law, and in conformity
with the Uniform Commercial Code, persons entitled
to enforce a negotiable instrument are the “(i) the
holder of the instrument,
(ii) a non-holder in possession of the instrument
who has the rights of a holder; or (iii) a person not in
possession of the instrument who is entitled to enforce
the instrument pursuant to Section 3-309 or 3-418
(d).”68
As relevant here, a “[h]older” is defined as “the
person in possession of a negotiable instrument that
is payable either to bearer or to an identified person
that is the person in possession[.]”69 “Negotiation” is
required to make another party a holder.70 “[I]f an
instrument is payable to an identified person, negotiation requires transfer of possession of the instrument
and its indorsement by the holder.”71
Here, the Note is payable to FirstBank. Therefore,
to show that it is a “holder” with standing to enforce
67 Sheridan Br. 26-27.
68 See 11A V.I.C. § 3–301.
69 See id. § 1–201(b)(20)(A).
70 Id. § 3–201(a).
71 Id. § 3–201(b).

App.27a
the Note, DLJ was required to prove that FirstBank
transferred possession of the Note and indorsed the
Note to DLJ. Holmes, whose testimony the District
Court assigned “great weight,”72 testified that FirstBank indorsed the Note to DLJ and that DLJ is in
possession of the Note. Further, copies of the original
Note, the 2009 amendment to the Note, and allonge
endorsing the Note to DLJ were produced at trial.
The allonge, dated June 20, 2013, includes the loan
number, borrowers’ names, loan amount, is signed by
an employee of FirstBank, and states: “Pay to the
Order of: DLJ Mortgage Capital, Inc. Without Recourse
FirstBank of Puerto Rico.”73 Holmes testified that this
allonge was attached to the Note when DLJ received
the 2009 amendment to the Note. Accordingly, as the
District Court found, this allonge and Holmes’s
testimony evidences DLJ’s indorsement of the Note
to DLJ.74
From this evidence, the District Court properly
found that the Note was transferred to DLJ, that
DLJ is in possession of the Note, and that DLJ has
standing and is authorized to enforce the Note.
Sheridan attempts to cast doubt on DLJ’s interest
in the Note by pointing to a single page which contains
only a stamp stating “Pay to the order of: [Blank].
Without Recourse Federal Home Loan Bank of N.Y.”
72 App. 313.
73 App. 498 (emphasis omitted).
74 The District Court stated: “And there has been some suggestion
that while the allonge itself isn’t an assignment, I don’t believe
there is any reasonable doubt or any doubt, really, that the
allonge is an endorsement of the thing that precedes it, which is
the note.” App. 312.

App.28a
and signed by “Paul D. Gourleux, SVP.”75 There is
no other writing on this page. This single page is
part of an exhibit introduced at trial which contains
the 2009 amendment to the Note, one allonge indorsing
the Note to blank, and the allonge described above,
which indorsed the Note to DLJ. Holmes testified
that the stamp was “on the back of the original copies”
of the 2009 amendment to the Note when DLJ
received the loan documents.76 There was no further
testimony or evidence introduced as to the relevance
of the stamp. Nor was there any testimony or evidence
suggesting that “Federal Home Loan Bank of N.Y.” is
an entity with interest in the Note and Mortgage. DLJ’s
possession of the Note and FirstBank’s indorsement,
notwithstanding the unsubstantiated challenge to
the chain of assignments, provided DLJ with standing
to enforce the Note.
In view of Holmes’s testimony, DLJ’s physical
possession of the Note, the allonge endorsing the
Note to DLJ, the Assignment, and the lack of evidence
to the contrary, we find no clear error in the District
Court’s finding that the Note and Mortgage were
assigned to DLJ and that therefore DLJ is entitled to
collect all sums due under the Note and foreclose on
the properties mortgaged as security for the Note.77

75 App. 496 (emphasis omitted).
76 App. 250.
77 Because we agree that DLJ has standing to enforce the Note
and Mortgage, we reject Sheridan’s argument that DLJ is not
the “real party in interest” within the meaning of Federal Rule
of Civil Procedure 17(a) and that the District Court lacked
jurisdiction over this action.

App.29a
We have carefully considered the remaining issues
presented by Sheridan and conclude they are without
merit.
[ * * *]
For the reasons stated, we will affirm the Judgment of the District Court.

App.30a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
(SEPTEMBER 22, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
DLJ MORTGAGE CAPITAL, INC.
v.
ANA SHERIDAN; ROY SHERIDAN;
DEPARTMENT OF TREASURY INTERNAL
REVENUE SERVICE
ROY SHERIDAN,

Appellant.

________________________
No. 18-3187

On Appeal from the District Court of the
Virgin Islands (D.C. Civil No. 3-16-cv-00085)
District Judge: Hon. Curtis V. Gomez
Before: GREENAWAY JR., PHIPPS, and
FUENTES, Circuit Judges.
This cause came to be considered on the record
from the District Court of the Virgin Islands and was
argued on May 20, 2020. On consideration whereof,
It is now hereby ORDERED and ADJUDGED
that the judgment of the District Court entered on
August 10, 2018 is hereby AFFIRMED. Costs are

App.31a
taxed against Appellant. All of the above in accordance
with the opinion of this Court.
ATTEST:
/s/ Patricia S. Dodszuweit
Clerk
Dated: September 22, 2020

App.32a
JUDGMENT AND ORDER
OF THE DISTRICT COURT OF VIRGIN ISLANDS
(AUGUST 10, 2018)
DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
________________________
DLJ MORTGAGE CAPITAL, INC.
v.

Plaintiff,

ANA SHERIDAN; ROY SHERIDAN;
DEPARTMENT OF TREASURY-INTERNAL
REVENUE SERVICE

Defendants.

________________________
Civil No. 2016-85

Before: Curtis V. GÓMEZ, District Judge.
GÓMEZ, J.
Before the Court is the complaint of DLJ Mortgage
Capital, Inc. A bench trial in this matter was held on
June 18, 2018.
I.

Factual and Procedural History

Based on the evidence adduced in this matter,
the Court makes the following findings of fact:
1. Roy Sheridan and Ana Sheridan (collectively,
the “Sheridans”) are the record owners of property

App.33a
described as Parcel No. 14-117 Estate Frenchman’s
Bay, No. 4 Frenchman’s Bay Quarter, St. Thomas,
U.S. Virgin Islands, consisting of 0.694 U.S. Acre +/-,
As shown on P.W.D. No. a9-176-T172; and Parcel No.
13B Norre Gade, Queens Quarter, St. Thomas, U.S.
Virgin Islands, As shown on measure brief dated
October 10, 1844 (collectively, the “Properties”).
2. On or about August 17, 2007, the Sheridans
borrowed $725,000 from FirstBank of Puerto Rico
(“FirstBank”).
3. On August 17, 2007, the Sheridans executed
and delivered a promissory note (the “Note”) to FirstBank in which they promised to pay FirstBank the
principal sum of $725,000, plus interest at a rate of
8.125% per annum to be paid in monthly installments.
4. The Note provides that the Sheridans will be
in default if they fail to make a monthly payment on its
due date. The Note also provides that if the Sheridans
fail to pay a monthly instalment, FirstBank could
send the Sheridans written notice requiring them to
make the overdue payment by a certain date. If the
Sheridans failed to pay the instalment by that date,
FirstBank could make the remaining principal and
interest due and payable immediately.
5. On August 17, 2007, the Sheridans delivered
to FirstBank a real estate mortgage (the “Mortgage”)
encumbering the Properties. The Mortgage is attached
to the Properties. The Mortgage’s terms give the
holder the right to foreclose on the Properties in the
event of a default on the Note.
6. On August 22, 2007, the Mortgage was recorded
at the Office of Recorder of Deeds for the District

App.34a
of St. Thomas and St. John as Document Number
2007007224.
7. On or about September 14, 2009, the Sheridans
executed and delivered to FirstBank an amendment
to the Note in which they promised to pay to FirstBank
the principal sum of $751,660.11.
8. On September 14, 2009, the Sheridans delivered
to FirstBank an amendment to the Mortgage securing
payment of increased principal in the amended note.
9. On October 1, 2009, the modification to the
Mortgage was recorded at the Office of Recorder of
Deeds for the District of St. Thomas and St. John as
Document Number 2009007209.
10. On December 9, 2011, the Sheridans executed
and delivered to FirstBank a second amendment to
the Note in which they promised to pay to FirstBank
the principal sum of $768,654.77.
11. On December 13, 2011, the Sheridans
delivered to FirstBank a second amendment to the
Mortgage securing payment of the increased principal
in the second amended note.
12. On August 31, 2012, the second modification
to the Mortgage was recorded at the Office of Recorder
of Deeds for the District of St. Thomas and St. John
as Document Number 2012006036.
13. On June 20, 2013, the Note and Mortgage
were assigned to DLJ Mortgage Capital, Inc. (“DLJ”).
14. On July 10, 2013, the assignment was recorded at the Office of Recorder of Deeds for the District
of St. Thomas and St. John as Document Number
2013005370.

App.35a
15. The United States Department of Treasury,
Internal Revenue Service (“IRS”) holds a tax lien in
the amount of $18,924.77 on the Properties.
16. On January 12, 2012, the IRS’s tax lien on
the Properties was recorded at the Office of Recorder
of Deeds for the District of St. Thomas and St. John
as Document Number 2012000183.
17. On June 1, 2012, the Sheridans failed to make
a monthly payment on the note and were in default on
the Note. The Sheridans failed to make all subsequent
monthly payments.
18. On May 13, 2015, DLJ sent the Sheridans
written notice demanding payment of the overdue
monthly instalments by June 12, 2015.
19. The Sheridans failed to pay the owed monthly
instalments on June 12, 2015.
20. DLJ initiated this action against the Sheridans to enforce the terms and conditions of the Note
and Mortgage.
21. The IRS was joined in the action.
22. The Sheridans are in default on the Note.
As of April 4, 2018, the Sheridans are in debt to DLJ
in the principal amount of $766,210.54; plus interest
in the amount of $255,405.53; escrow advances of
$77,317.49; advances made on the Sheridans’ behalf
in the amount of $4,809; and interest on the advances
in the amount of $17.19. The total amount of the
Sheridans’ indebtedness to DLJ is $1,103,759.75.
Interest continues to accrue at a rate of $125.96 per
diem from April 4, 2018, through the date of Judgment.

App.36a
II.

Discussion

To prevail on a debt and foreclosure claim, the
plaintiff must show that: (1) the debtor executed a
promissory note and mortgage; (2) the debtor is in
default under the terms of the note and mortgage;
and (3) the lender is authorized to foreclose on the
property mortgaged as security for the note. Thompson
v. Florida Wood Treaters, Inc., 52 V.I. 986, 995 (D.V.I.
2009). The facts found by the Court establish each of
the elements for a debt and foreclosure claim.
“When determining the priority of liens, the Virgin
Islands is a race notice jurisdiction.” Kennedy Funding,
Inc. v. Oracle Bus. Devs., LLC, No. 2012-0009, 2016
U.S. Dist. LEXIS 13498, at *18 (D.V.I. Feb. 4, 2016).
As such, an earlier recorded instrument takes priority
over a latter filed instrument. See Moco Inves., Inc.
v. United States, 362 Fed App’x 305, 309 (3d Cir. 2010).
DLJ recorded its mortgage on the Properties before
any other liens were recorded against the Properties.
As such, DLJ holds a first priority mortgage on the
Properties. The IRS holds a second priority mortgage
on the Properties.
The premises considered, it is hereby
ORDERED that JUDGMENT is entered in favor
of DLJ; it is further
ORDERED that all pending motions are MOOT;
it is further
ORDERED that DLJ shall recover from the
Sheridans the principal amount of $766,210.54; plus
interest in the amount of $255,405.53; escrow advances
of $77,317.49; advances made on the Sheridans’
behalf in the amount of $4,809; and interest on the

App.37a
advances in the amount of $17.19. Interest continues
to accrue at a rate of $125.96 per diem from April 4,
2018, through the date of Judgment; it is further
ORDERED that the Mortgage is a first priority
lien; it is further
ORDERED that the IRS’s tax lien is a second
priority lien; it is further
ORDERED that the Mortgage, and any liens
subsequent to it are hereby foreclosed; it is further
ORDERED that the Properties shall be sold by the
United States Marshal according to law and the
proceeds of such sale shall be applied first to the
expenses associated with any sale, including but not
limited to the costs of publication and the commission
assessed by the United States Marshal’s Service
pursuant to Title 28, Section 1921 of the United
States Code. Second, the proceeds of such sale shall
be applied toward satisfaction of this Judgment in
favor of DLJ, including any costs and attorney’s fees
that may be awarded upon application and any sums
that may be paid by DLJ for insurance premiums,
taxes, and expenditures necessary to maintain the
Properties pending sale with interest from the date
of any such payment. Third, the proceeds of such sale
shall be applied toward the satisfaction of the IRS’s
tax lien. Pursuant to Title 5, Section 489(5) of the
Virgin Islands Code, the surplus, if any, remaining
after application of the proceeds as provided above,
shall be returned to the debtor; and it is further
ORDERED that
1. Pursuant to Title 5, Section 484 of the Virgin
Islands Code, notice of the Marshal’s sale shall be

App.38a
posted for four (4) weeks prior to the sale in a public
place in or near the Office of the Clerk of the Court; and
published once a week for at least four (4) consecutive
weeks prior to the sale in a newspaper regularly
issued and of general circulation in the U.S. Virgin
Islands, which uses newsprint. The notice shall
describe the Properties as set out above and shall
contain the terms and conditions of sale as set out
herein.
2. The terms and conditions of the sale shall be
as follows:
a.

The Properties shall be sold as a whole at a
public sale at the Office of the U.S. Marshal,
Federal Building, St. Thomas, U.S. Virgin
Islands.

b.

DLJ may bid a credit against its Judgment
and interest thereon, plus any costs and expenses, without tender of cash.

c.

The terms of the sale as to all other persons
or parties bidding shall be cash.

d.

The successful bidder on the Properties shall
be required to deposit with the United States
Marshal cash equal to ten percent of his
total bid at or before 5:00 p.m. on the date
of the sale of the Properties; and the remaining ninety percent of the said purchase price
to be paid on or before 5:00 p.m. within
thirty days inclusive, of the date of sale of
the Properties.

e.

The United States Marshal shall make his
report of the sale of the Properties within
ten days from the date of the sale.

App.39a
3. DLJ shall have any and all writs necessary to
execute the terms of this Judgment.
4. The Sheridans shall be liable to DLJ for any
deficiency remaining after the sale of the Properties.
/s/ Curtis V. Gómez
District Judge

App.40a
ORDER ON MOTION IN LIMINE
TO EXCLUDE EVIDENCE
(JUNE 18, 2018)
IN THE DISTRICT COURT OF THE
VIRGIN ISLANDS DIVISION OF
ST. THOMAS AND ST. JOHN
________________________
DLJ MORTGAGE CAPITAL, INC.
v.

Plaintiff,

ROY SHERIDAN, ANA SHERIDAN AND
DEPARTMENT OF TREASURY-INTERNAL
REVENUE SERVICE

Defendants.

________________________
Civil No. 2016-85

Before: Ruth MILLER,
United States Magistrate Judge.
This matter is before the Court on plaintiff’s
motion in limine to exclude evidence not previously
disclosed. [ECF 121]. Defendants’ opposed the motion.
[ECFs 145, 146]. The Court referred the matter to
the undersigned. [ECF 141]. A hearing on the motion
took place on June 18, 2018.
Federal Rule of Civil Procedure 37 (c)(1) provides
that the failure to disclose or identify witnesses as
required under Rule 26 shall result in the party not

App.41a
being allowed to use the evidence or witnesses at
trial. Defendants have not shown that the failure to
disclose was either substantially justified or harmless.
For the reasons stated on the record, and the
premises considered, it is hereby ORDERED that the
motion is GRANTED, and the documents and witnesses
not previously disclosed, with the exception of the
Sheridans themselves, be excluded from trial.
/s/ Ruth Miller
United States Magistrate Judge
Dated: June 18, 2018

App.42a
ORDER ON MOTION TO REOPEN DISCOVERY
(JUNE 4, 2018)
DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
________________________
DLJ MORTGAGE CAPITAL, INC.
v.

Plaintiff,

ANA SHERIDAN, ROY SHERIDAN,
DEPARTMENT OF TREASURY-INTERNAL
REVENUE SERVICE

Defendants.

________________________
Civil No. 2016-85

Before: Curtis V. GÓMEZ, District Judge.
GÓMEZ, J.
Before the Court is the motion of Ana Sheridan
to reopen discovery in this matter.
On October 20, 2016, DLJ Mortgage Capital, Inc.,
(“DLJ”) commenced a debt and foreclosure action
against Ana Sheridan, Roy Sheridan, and the Department of Treasury-Internal Revenue Service. DLJ alleges that on or about August 17, 2007, Roy Sheridan
and Ana Sheridan (collectively, the “Sheridans”)
borrowed $725,000 from FirstBank Puerto Rico
(“FirstBank”). The Sheridans executed and delivered
to FirstBank a promissory note (the “Note”) promis-

App.43a
ing to repay FirstBank that sum with interest. The
Sheridans also delivered to BNS a real estate mortgage
(the “Mortgage”) encumbering certain real property
(the “Property”). The Mortgage was subsequently
assigned to DLJ.
On November 15, 2016, attorney Benjamin A.
Currence (“Currence”) entered an appearance on behalf
of the Sheridans. On December 8, 2016, the Sheridans
answered DLJ’s complaint.
On January 10, 2017, the Magistrate Judge
entered a scheduling order. The Magistrate Judge
ordered that fact discovery was to be completed by
June 1, 2017. All discovery was to be completed by
September 1, 2017. The trial in this matter was
originally scheduled for January 17, 2018. The trial
was subsequently continued several times and is
currently set to commence on June 18, 2018.
On February 2, 2018, DLJ moved for summary
judgment.
On February 22, 2018, the Sheridan’s filed a
document captioned “Stipulation for Substitution of
Counsel for Defendants Roy Sheridan and Ana Sheridan.” See ECF No. 73. That document indicated that
attorney Namosha Boykin (“Boykin”) was replacing
Currence as the Sheridan’s attorney.
On April 18, 2018, attorney Francis E. Jackson,
Jr., (“Jackson”) entered an appearance on behalf of
Ana Sheridan. On May 2, 2018, Ana Sheridan filed a
motion to reopen discovery in this matter. Ana Sheridan
asserted that Jackson “has personal knowledge of the
fact that . . . Ana[] [Sheridan’s] first counsel became
suddenly and gravely ill in June 2017, which required
his hospitalization. That illness and his recuperation

App.44a
therefrom likely affected his prosecution of this case.”
See ECF No. 95 at 1. Ana Sheridan asserted that she
“needs to conduct some discovery to meaningfully
respond to [DLJ]’s motion [for summary judgment] to
flesh out the facts that will support an appropriate
motion of her own.” See id.
Under Federal Rule of Civil Procedure 16 (“Rule
16”), a scheduling order “may be modified only for
good cause and with the judge’s consent.” Fed. R.
Civ. P. 16(b)(4). The burden is on the moving party to
show a modification is justified by good cause. See,
e.g., Race Tires Am., Inc. v. Hoosier Racing Tire
Corp., 614 F.3d 57, 84 (3d Cir. 2010)
“Whether good cause exists turns on the diligence
of the moving party.” Holmes v. Grubman, 568 F.3d
329, 335 (3d Cir. 2009) (internal quotation marks
omitted); see also Sosa v. Airprint Sys., Inc., 133 F.3d
1417, 1418 (11th Cir. 1998) (“[The] good cause standard
precludes modification unless the schedule cannot ‘be
met despite the diligence of the party seeking the extension.’” (quoting Fed. R. Civ. P. 16, advisory committee’s
note, 1983 amendments)). For this reason, the diligence
of the party seeking the amendment is the “primary
consideration” in determining whether good cause
has been shown. See Kassner v. 2nd Ave. Delicatessen
Inc., 496 F.3d 229, 244 (2d Cir. 2007). In addition,
however, district courts may consider other relevant
factors such as “futility, bad faith, . . . or undue prejudice to the opposing party.” See Holmes, 568 F.3d
at 335 (internal quotation marks omitted); see also
Kassner, 496 F.3d at 244 (explaining that, in addition
to diligence, a district court “may consider other
relevant factors including, in particular, whether
allowing the amendment of the pleading at this stage

App.45a
of the litigation will prejudice defendants”). Generally,
where there has not been a “change in the law, . . .
newly discovered facts, or any other changed circumstances,” a party will not be able to show good cause.
See Hartis v. Chicago Title Ins., 694 F.3d 935, 948
(8th Cir. 2012).
In Lehman Bros. Holdings v. Gateway Funding
Diversified Mortg. Servs., L.P., 785 F.3d 96 (3d Cir.
2015), the plaintiff switched lawyers before trial and
moved to modify the discovery order with respect to
the discovery deadlines. Id. at 102. The plaintiff argued
that the modification was justified by good cause
because “its [new] counsel ‘was unfamiliar with the
case.’” Id. The district court denied the motion. Id.
On appeal, the Third Circuit explained that, as a
general rule, it “will not interfere with the discretion
of the district court by overturning a discovery order
absent a demonstration that the court’s action made
it impossible to obtain crucial evidence, and implicit
in such a showing is proof that more diligent discovery was impossible.” Id. (internal quotation marks
omitted) (quoting Hewlett v. Davis, 844 F.2d 109,
113 (3d Cir.1988)). In that case, the new “counsel’s
unfamiliarity with the case did not make it impossible
to obtain evidence—more diligent discovery was
certainly possible, albeit by previous counsel.” Id.
Here, Ana Sheridan asserts that the illness of
her previous attorney prevented him from completing
discovery. Significantly, Ana Sheridan asserts that
her previous attorney was not afflicted with this
illness until sometime in June, 2017. The Magistrate’s
scheduling order set June 1, 2017, as the deadline for
completion of fact discovery. Ana Sheridan does not
explain why her previous attorney was unable to

App.46a
complete discovery before this date. Under these
circumstances, the Court finds that “more diligent
discovery was certainly possible, albeit by previous
counsel.” See Lehman Bros. Holdings, 785 F.3d at
102. Accordingly, the Court holds that Ana Sheridan
has not demonstrated that her proposed modification
to the scheduling order is supported by good cause.
The premises considered, it is hereby
ORDERED that the motion to reopen discovery
docketed at ECF Number 95 is DENIED.
/s/ Curtis V. Gómez
District Judge

App.47a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
DENYING PETITION FOR REHEARING
(OCTOBER 20, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
DLJ MORTGAGE CAPITAL, INC.
v.
ANA SHERIDAN; ROY SHERIDAN;
DEPARTMENT OF TREASURY-INTERNAL
REVENUE SERVICE
ROY SHERIDAN,

Appellant.

________________________
No. 18-3187
(D.V.I. No. 3-16-cv-00085)

Before: SMITH, Chief Judge, McKEE, AMBRO,
JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and FUENTES,*
Circuit Judges.

* Pursuant to Third Circuit I.O.P. 9.5.3., Judge Fuentes’s vote
is limited to panel rehearing.

App.48a
The petition for rehearing filed by appellant, in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
/s/ Julio M. Fuentes
Circuit Judge
Dated: October 20, 2020
Lmr/cc: All Counsel of Record

